No. 20-1534
IN THE

Supreme Court of the United States
PATRICK DOUGHTY, ET AL.,
v.

Petitioners,

STATE EMPLOYEES’ ASSOCIATION OF NEW HAMPSHIRE, SEIU LOCAL 1984, CTW, CLC,
Respondent.
On Petition for Writ of Certiorari to the United
States Court of Appeals for the First Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S
BRIEF IN OPPOSITION in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnotes, and this brief contains 2,740
words, excluding the parts that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 13, 2021.
/s/ Ramya Ravindran
RAMYA RAVINDRAN

(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
rravindran@bredhoff.com
Counsel for Respondent State Employees’
Association of New Hampshire, SEIU Local 1984

